C@OCKLE

Legal Briefs

E-Mail Address:

2311 Douglas Street
contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 21-348
JOHNSON & JOHNSON, ET AL.,
PETITIONERS,
Vv.

MISSISSIPPI, EX REL. LYNN FITCH,
ATTORNEY GENERAL OF MISSISSIPPI.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR FORMER FDA
OFFICIALS AS AMICI CURIAE SUPPORTING PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
5282 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of October, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska wv Chk,
RENEE J. GOSS 9. Qudraw 3
Notary Public

‘My Comm. Exp. September 5, 2023
Affiant 41451

 
